   June 10, 2005




Defense Infrastructure
Education and Training Joint
Cross-Service Group Data Integrity
and Internal Control Processes for
Base Realignment and Closure 2005
(D-2005-084)




            Department of Defense
           Office of Inspector General
Quality             Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms

AAA                   Army Audit Agency
BRAC                  Base Realignment and Closure
COBRA                 Cost of Base Realignment Actions
DoD OIG               Department of Defense Office of Inspector General
E&T                   Education and Training
FT                    Flight Training
ICP                   Internal Control Plan
IEC                   Infrastructure Executive Council
ISG                   Infrastructure Steering Group
JCSG                  Joint Cross-Service Group
JPAT 7                Joint Process Action Team Criterion Number 7
OSD                   Office of the Secretary of Defense
PDE                   Professional Development Education
SOP                   Standard Operating Procedure
SST                   Specialized Skill Training
USD(AT&L)             Under Secretary of Defense for Acquisition, Technology, and
                         Logistics
                            INSPECTOR GENERAL
                           DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON. VIRGINIA 22202-4704



                                                                            June 10,2005
MEMORANDUM FOR CHAIR, EDUCATION AND TRAINING JOINT
               CROSS-SERVICE GROUP
SUBJECT: Report on Education and Training Joint Cross-Service Group Data Integrity
         and Internal Control Processes for Base Realignment and Closure 2005
         (Report No. D-2005-084)

        We are providing this report for information and use. No written response to this
report was required, and none was received. Therefore, we are publishing this report in
final form.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Deborah L. Carros at (703) 604-9217 @SN 664-9217) or Ms. Beth K. Schaefer at
(703) 604-9232 (DSN 664-9232). See Appendix D for the report distribution. Team
members pe listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:




                                      Assistant Inspector General
                                      for ContractManagement
               Department of Defense Office of Inspector General
Report No. D-2005-084                                                       June 10, 2005
 (Project No. D2003-D000CG-0134.000)

             Education and Training Joint Cross-Service Group
               Data Integrity and Internal Control Processes
                  for Base Realignment and Closure 2005

                                 Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel, members of the Education and Training Joint Cross-Service Group, and
anyone interested in the Base Realignment and Closure (BRAC) process should read this
report. The report discusses the validity, integrity, and documentation of data used by the
Education and Training Joint Cross-Service Group for BRAC 2005.

Background. BRAC 2005 is the formal process outlined in Public Law 101-510,
“Defense Base Closure and Realignment Act of 1990,” as amended, under which the
Secretary of Defense may realign or close military installations inside the United States
and its territories. As part of BRAC 2005, the Under Secretary of Defense for
Acquisition, Technology, and Logistics issued “Transformation Through Base
Realignment and Closure (BRAC 2005) Policy Memorandum One—Policy,
Responsibilities, and Procedures,” April 16, 2003, that states that the Department of
Defense Office of Inspector General would review the accuracy of BRAC data and the
certification process. In addition, the Department of Defense Office of Inspector General
was responsible for validating whether the BRAC data used by the Joint Cross-Service
Groups for developing recommendations was certified by the appropriate authority.

The BRAC 2005 process was mandated for the United States and its territories and was
divided into the following data calls–capacity analysis, supplemental capacity, military
value, Cost of Base Realignment Actions, Joint Process Action Team Criterion
Number 7, and scenario specific. The supplemental capacity, military value, Cost of Base
Realignment Actions, and Joint Process Action Team Criterion Number 7 data calls were
collectively known as the second data call. This report is one of seven that discusses the
Joint Cross-Service Group involvement in the BRAC process.

Education and Training Joint Cross-Service Group. As the Chairman of the
Infrastructure Steering Group, the Under Secretary of Defense for Acquisition,
Technology, and Logistics established six Joint Cross-Service Groups on
March 15, 2003. A seventh Joint Cross-Service Group was later added. Each Joint
Cross-Service Group is responsible for overseeing the joint cross-service analysis of
functions within its area. The Education and Training Joint Cross-Service Group was
established to evaluate active and reserve component institutions, Special Operations
Forces schools, Defense agency schools, and civilian institutions, with the exceptions of
healthcare and intelligence professional education. Also, excluded from Education and
Training Joint Cross-Service Group analysis were categories and sub-categories of
institutional education and training to be evaluated by the Services.
Results. We evaluated the Education and Training Joint Cross-Service Group use of
certified data and whether the Education and Training Joint Cross-Service Group had an
adequate audit trail for capacity analysis and military value analysis. We evaluated the
adequacy of the Education and Training Joint Cross-Service Group audit trail for the
input into the Cost of Base Realignment Actions model.

After corrections were made, the Education and Training Joint Cross-Service Group used
certified data and created adequate audit trails for capacity analysis and military value
analysis. ∗ The Education and Training Joint Cross-Service Group had adequate audit
trails for input into the Cost of Base Realignment Actions model. In addition, the
Education and Training Joint Cross-Service Group generally complied with established
internal control procedures from the Office of the Secretary of Defense internal control
plan and Education and Training Joint Cross-Service Group standard operating
procedures. As a result, all material discrepancies within our scope of review that would
affect the reliability and integrity of the Education and Training Joint Cross-Service
Group process were resolved.

Management Comments. We provided a draft of this report on May 27, 2005. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




* Due to time constraints, we could not verify whether the Question 104 data used by the Specialized Skill
  Training Subgroup were certified and could not determine the impact of Question 104 data on the
  military value model or potential candidate recommendations. Additionally, we did not complete a
  review of the certified data and audit trails of the Ranges Subgroup spreadsheets and Microsoft Access
  data files used for capacity analysis or military value analysis. We discontinued our review because the
  Infrastructure Executive Council did not approve any candidate recommendations from the Ranges
  Subgroup.

                                                    ii
Table of Contents

Executive Summary                                                           i

Background                                                                  1

Objectives                                                                  6

Finding
     Education and Training Joint Cross-Service Group Data Integrity and
        Internal Control Processes for BRAC 2005                            7

Appendixes
     A. Scope and Methodology                                              11
        Management Control Program Review                                  13
     B. Prior Coverage                                                     14
     C. Review of COBRA Model Input for Potential Candidate
          Recommendations                                                  16
     D. Report Distribution                                                18
Background
    Base Realignment and Closure 2005. Public Law 101-510, “Defense Base
    Closure and Realignment Act of 1990,” as amended, establishes the procedures
    under which the Secretary of Defense may realign or close military installations
    inside the United States and its territories. Congress authorized a Base
    Realignment and Closure (BRAC) in 2005. The law authorizes the establishment
    of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The deadline
    for the Secretary of Defense to submit recommendations to the independent
    Commission was May 16, 2005.

    In the “Transformation Through Base Realignment and Closure (BRAC 2005)
    Memorandum,” November 15, 2002, the Secretary of Defense established two
    senior groups to oversee and operate the BRAC 2005 process. The two senior
    groups were the Infrastructure Executive Council (IEC) and the Infrastructure
    Steering Group (ISG). Distinct functional boundaries and levels of authority
    separated these two groups. The Secretary of Defense established and chartered
    the IEC and the ISG as the BRAC 2005 deliberative bodies responsible for
    leadership, direction, and guidance.

    Infrastructure Executive Council. The IEC, chaired by the Deputy Secretary of
    Defense and composed of the Secretaries of the Military Departments and their
    Chiefs of Services, the Chairman of the Joint Chiefs of Staff, and the Under
    Secretary of Defense for Acquisition, Technology, and Logistics (USD[AT&L]),
    was the policymaking and oversight body for the entire BRAC 2005 process. The
    IEC was the approval authority for all BRAC recommendations to the Secretary of
    Defense.

    Infrastructure Steering Group. The ISG was chaired by the USD(AT&L) and
    composed of the Vice Chairman of the Joint Chiefs of Staff, the Military
    Department Assistant Secretaries for Installations and Environment, the Service
    Vice Chiefs, and the Deputy Under Secretary of Defense for Installations and
    Environment. The ISG oversaw the joint cross-service analyses of common
    business-oriented functions and ensured that the process was integrated with the
    Military Department and Defense agency-specific analyses of all other functions.
    The ISG provided progress reports to the IEC. The USD(AT&L) had the authority
    and responsibility for issuing the operating policies and detailed direction
    necessary to conduct BRAC 2005 analyses.

           •   “Transformation Through Base Realignment and Closure
               (BRAC 2005) Policy Memorandum One—Policy, Responsibilities,
               and Procedures,” (Policy Memorandum One) April 16, 2003.
               Policy Memorandum One applies to the Military Departments, Defense
               agencies (DoD Components), and Joint Cross-Service Groups (JCSG)
               in developing the Secretary of Defense BRAC recommendations for the
               2005 BRAC Commission review. Policy Memorandum One describes
               policy, responsibilities, and procedures to be followed by participants
               in the BRAC process. Additionally, Appendix B of Policy
               Memorandum One is the Office of the Secretary Defense (OSD)
               internal control plan (ICP) for the BRAC 2005 process.
                                        1
•   “Policy Memorandum Two—BRAC 2005 Military Value
    Principles,” October 14, 2004. Policy Memorandum Two states that
    all recommendations made by the JCSGs and Military Departments will
    use military value as the determining factor. When making realignment
    or closure recommendations, JCSGs and Military Departments were to
    apply appropriate use of military judgment in order to meet all
    requirements by the Department. Military judgment is applied through
    the following principles: Recruit and Train; Quality of Life; Organize;
    Equip; Supply, Service, and Maintain; Deploy and Employ
    (operational); and Intelligence.

•   “Transformation Through Base Realignment and Closure
    (BRAC 2005) Policy Memorandum Three—Selection Criterion 5,”
    December 7, 2004. Policy Memorandum Three describes how BRAC
    Selection Criterion 5 will be implemented during the BRAC process.
    JCSGs and Military Departments were to apply Selection Criterion 5 to
    estimate the projected costs and savings of their scenarios.

•   “Transformation Through Base Realignment and Closure
    (BRAC 2005) Policy Memorandum Four—Selection Criteria 7
    and 8,” December 7, 2004. Policy Memorandum Four provides
    guidance and clarification on the assessment of communities’
    infrastructure and consideration of the environmental impacts of
    realignment and closure scenarios.

•   “Transformation Through Base Realignment and Closure
    (BRAC 2005) Policy Memorandum Five—Homeland Defense,”
    December 10, 2004. Policy Memorandum Five establishes policies
    and procedures for the Military Departments and JCSGs to ensure that
    DoD retains the necessary capabilities to support the homeland defense
    mission.

•   “Transformation Through Base Realignment and Closure
    (BRAC 2005) Policy Memorandum Six—Selection Criterion 6,”
    December 20, 2004. Policy Memorandum Six provides guidance that
    establishes policies and procedures for the Military Departments and
    the JCSGs on how to use the Economic Impact Tool when applying
    BRAC Selection Criterion 6 to realignment and closure scenarios.
•   “Transformation Through Base Realignment and Closure
    (BRAC 2005) Policy Memorandum Seven—Surge,” January 4,
    2005. Policy Memorandum Seven provides guidance to the Military
    Departments and JCSGs on meeting the DoD statutory requirement to
    consider surge in realignment and closure scenarios.

•   “Transformation Through Base Realignment and Closure
    (BRAC 2005) Policy Memorandum Eight—Selection Criterion 8,”
    January 4, 2005. Policy Memorandum Eight provides guidance on
    how to identify the environmental impact of a particular scenario to
    provide decision makers with the necessary information to fully
    consider the impacts.

                             2
Joint Cross-Service Groups. A primary objective of BRAC 2005, in addition to
realigning base structure, was to examine and implement opportunities for greater
joint activity. Prior BRAC analyses considered all functions on a Service-by-
Service basis and, therefore, did not result in the joint examination of functions
that cross Services. The JCSGs addressed issues that affect common business-
oriented support functions, examined functions in the context of facilities, and
developed realignment and closure recommendations based on force structure
plans of the Armed Forces and on selection criteria. The JCSGs reported their
results through the ISG to the IEC. The USD(AT&L) established six JCSGs—
Education and Training, Headquarters and Support Activities, Industrial, Medical,
Supply and Storage, and Technical on March 15, 2003. A seventh JCSG-
Intelligence-was later added.

Education and Training Joint Cross-Service Group. The Education and
Training (E&T) JCSG is one of seven JCSGs and was established by the
Chairman of the ISG on March 15, 2003. E&T JCSG was established to evaluate
active and reserve component institutions, Special Operating Forces schools,
Defense agency schools, and civilian institutions, with the exceptions of
healthcare and intelligence professional education. Also, excluded from E&T
JCSG analysis were categories and subcategories of institutional education and
training to be evaluated by the Services, such as Army one-station Unit Training,
service-unique basic and recruit training, officer accessions, junior officer
professional military education, service non-commissioned officer academies,
enlisted leadership schools, and unit-level collective training. The Principal
Deputy Under Secretary of Defense for Personnel and Readiness chaired the E&T
JCSG, and each Service and the Joint Staff was represented.

Each JCSG was responsible for overseeing the joint cross-service analysis of
functions within its area of responsibility. E&T JCSG was divided into four
functional subgroups: Flight Training (FT), Professional Development Education
(PDE), Range and Collective Training Capability (Ranges), and Specialized Skill
Training (SST).

        FT Subgroup. The FT Subgroup evaluated all DoD installations and
processes for the following flight training functions: undergraduate fixed-wing
pilot, undergraduate rotary-wing pilot, navigator/naval flight officer, joint strike
fighter initial training site, and unmanned aerial vehicle operators. The
FT Subgroup did not evaluate retiring aircraft; Service-unique, single-site, or
specialized aircraft training; Air Battle Manager training; or tilt-rotor, H-60 series,
and airlift pilot flight training.
       PDE Subgroup. The scope of the PDE Subgroup analysis included
Professional Military Education, Joint Professional Military Education, Graduate
Education, Other Full-Time Education Programs, and Leader Development.

        Ranges Subgroup. The Ranges Subgroup scope of analysis included
processes that support collective training capabilities, including Service unit, cross
service, and joint training functions. The assessment included training ranges and
test and evaluation ranges, but did not include training simulation centers. The
Ranges Subgroup was divided into two sub-working groups: Ranges-Training and
Ranges-Test and Evaluation.

                                       3
                   SST Subgroup. The SST Subgroup evaluated all institutional training that
           provides officer and enlisted personnel with new or higher-level skills in military
           specialties or functional areas for specific job requirements. The scope of SST
           analysis included three categories: initial skill, skill progression, and functional
           training.

           BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
           United States and its territories, was divided into the following data calls–capacity
           analysis, supplemental capacity, military value, Cost of Base Realignment Actions
           (COBRA), Joint Process Action Team Criterion Number 7 (JPAT 7), and scenario
           specific. The supplemental capacity, military value, COBRA, and JPAT 7 data
           calls were collectively known as the second data call. Each JCSG developed data
           call questions related to capacity and military value to obtain information about its
           respective functions. Each JCSG issued a capacity analysis and military value
           analysis report. Each data call had a specific purpose as follows.

                    •    The capacity analysis data call gathered data on infrastructure, current
                         workload, surge requirements, and maximum capacity.

                    •    The supplemental capacity data call clarified inconsistent data gathered
                         within the initial capacity analysis data call.

                    •    The military value data call gathered data on mission requirements,
                         land and facilities, mobilization and contingency, and cost and
                         manpower.

                    •    The COBRA data call gathered data to develop costs, savings, and
                         payback (formerly known as return on investment) of proposed
                         realignment and closure actions.

                    •    The JPAT 7 data call gathered data to assess the community’s ability to
                         support additional forces, missions, and personnel associated with
                         individual scenarios. 1

                    •    The scenario specific data call gathered data related to specific scenario
                         conditions for realignment or closure.
           OSD Master Database. The DoD collected certified data for BRAC 2005 using a
           mix of automated and manual processes. The Services and six Defense agencies
           used automated tools to collect the data while the other Defense agencies and
           organizations collected data in electronic format for the data calls. Portions of that
           automated data were then transferred to OSD and compiled into Microsoft Access
           databases called Capacity Analysis Database and Military Value Analysis
           Database. We refer to the Capacity Analysis Database and the Military Value
           Analysis Database together as the OSD Master Database, which OSD used as the
           centralized point of data distribution to the JCSGs.



1
    A scenario is a description of one or more potential realignment or closure actions identified for formal
    analysis by either a JCSG or a Military Department.

                                                         4
COBRA Model. COBRA is a computer model that provides a uniform
methodology for estimating and itemizing projected costs and savings associated
with realignment and closure scenarios. The COBRA model calculates the costs,
savings, and payback of proposed realignment and closure actions, using data that
are readily available without extensive field studies. The COBRA model can also
be used to compare the relative cost differences between various stationing
alternatives. It is not designed to produce budget estimates, but to provide a
consistent method of evaluating proposed actions. The COBRA model calculates
the costs and savings of base stationing scenarios over a period of 20 years or
longer if necessary. It models all activities (moves, construction, procurements,
sales, closures) as taking place during the first 6 years, and thereafter, all costs and
savings are treated as steady-state. The key output value produced is the Return on
Investment Year, the point in time when the realignment or closure has paid for
itself and net savings start to accrue (payback period). The COBRA model allows
comparison of realignment or closure scenarios based on when payback will be
achieved.

To perform a COBRA assessment, E&T JCSG loaded scenario specific data into
the COBRA model. These data, used in combination with model algorithms and
standard cost factors already developed and pre-loaded into the model, resulted in
an estimate of costs, savings, and payback for the proposed realignment or closure
scenario. To obtain the needed COBRA data input, E&T JCSG developed
COBRA-related questions that were issued as scenario specific data calls. These
COBRA-related questions primarily focused on data not previously gathered
concerning specific losing and receiving installations.

Internal Control Plans and Standard Operating Procedures. The OSD ICP
was distributed as part of Policy Memorandum One. Appendix B of Policy
Memorandum One is the ICP for all JCSGs.

E&T JCSG prepared “Standard Operating Procedures for Education and Training
Joint Cross-Service Group (E&T JCSG) Base Realignment and Closure (BRAC)
2005” in April 2004, and updated the standard operating procedures (SOP) in
October 2004 and February 2005. The SOP addressed E&T JCSG-specific storage
requirements, document control, use of communication devices, public affairs
guidance, and office security. Each of the E&T JCSG Subgroups prepared SOPs
that were based on the E&T JCSG SOP, and the Subgroups reviewed and updated
the SOPs during the BRAC process.
Department of Defense Office of Inspector General Responsibility. Policy
Memorandum One requires the Department of Defense Office of Inspector
General (DoD OIG) to provide advice on the ICP development and
implementation and review the accuracy of BRAC data and the certification
process. In addition, the memorandum requires DoD OIG personnel to assist the
JCSGs and DoD Components as needed. This report summarizes issues related to
E&T JCSG BRAC 2005 process.




                                       5
Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    documentation of data used by E&T JCSG. Specifically, we determined whether
    JCSG used certified data and had created an adequate audit trail for capacity
    analysis and military value analysis. In addition, we determined whether
    E&T JCSG had created an adequate audit trail for the COBRA model input for its
    potential candidate recommendations.

    Also, we evaluated whether E&T JCSG complied with the OSD ICP and the
    specific E&T JCSG SOPs. This report is one in a series on JCSG data integrity
    and internal control processes for BRAC 2005. See Appendix A for a discussion
    of the audit scope and methodology and our review of the management control
    programs related to the objectives. See Appendix B for a discussion of prior
    coverage. See Appendix C for a discussion of the review of COBRA model input
    for potential candidate recommendations.




                                       6
                  Education and Training Joint
                  Cross-Service Group Data Integrity
                  and Internal Control Processes for
                  BRAC 2005
                  Once corrections were made, E&T JCSG used certified data and created an
                  adequate audit trail for capacity analysis and military value analysis. E&T
                  JCSG also created an adequate audit trail for COBRA model input related
                  to six 2 potential candidate recommendations. In addition, E&T JCSG
                  properly safeguarded BRAC data and complied with the OSD ICP and
                  E&T JCSG SOPs. As a result, any material discrepancies within our scope
                  of review that might have affected the reliability and integrity of E&T
                  JCSG process were resolved.


E&T JCSG Data Integrity and Documentation for BRAC 2005
          After corrections were made, the E&T JCSG Subgroups used certified data and
          created adequate audit trails for their capacity analysis and military value analysis.
          In addition, the E&T JCSG Subgroups created an adequate audit trail for COBRA
          model input. During our review, we identified data discrepancies and audit trail
          issues; however, we worked with the E&T JCSG Subgroups to correct the
          deficiencies. Public Law 101-510, “Defense Base Closure and Realignment Act of
          1990,” as amended, section 2903(c)(5) requires that all information used to
          develop and make realignment and closure recommendations to the Secretary of
          Defense and the 2005 Defense BRAC Commission must be certified as accurate
          and complete to the best of the certifier’s knowledge and belief. Additionally, the
          OSD ICP for the 2005 BRAC process states that the BRAC 2005 process will be
          recorded and clearly documented to ensure the integrity of the process performed
          by the JCSGs.
          We did not complete a full validation or revalidation of the certified data and audit
          trails of the Ranges Subgroup spreadsheets and Microsoft Access data files used
          for capacity analysis and military value analysis. We discontinued our review
          because the IEC did not approve any candidate recommendations from the Ranges
          Subgroup. Therefore, this report does not address the data integrity or the
          documentation issues we identified during our initial validation efforts related to
          the Ranges Subgroup. For additional information on validation work performed,
          see Appendix A.




2
    The IEC approved nine candidate recommendations for E&T JCSG as of May 2, 2005. We limited our
    review of COBRA model input to the six candidate recommendations for which E&T JCSG Subgroups
    ran the COBRA model. We did not review the COBRA input for E&T-0061, E&T-0062, or E&T-0064
    because the Army ran the COBRA model for these candidate recommendations.

                                                   7
Capacity Analysis. Once corrections were made, E&T JCSG used certified data
and created adequate audit trails for capacity analysis. During our initial review,
we identified where E&T JCSG used data that were not contained in the OSD
Master Database or properly certified. We also identified discrepancies between
the OSD Master Database and the capacity analysis spreadsheets, and where the
Subgroups did not provide adequate audit trails for spreadsheets and supporting
spreadsheets. Specifically, we identified where E&T JCSG did not create audit
trails that identified the specific question numbers from which the data were
obtained or the calculations performed on the capacity analysis data. Based on our
findings, E&T JCSG made changes to capacity analysis spreadsheets. We
conducted a revalidation of the capacity analysis spreadsheets and identified
similar issues. Based on our revalidation, E&T JCSG made corrections and
resolved all outstanding data discrepancies and audit trail issues.

Military Value Analysis. Once corrections were made, E&T JCSG used certified
data and generally created adequate audit trails for military value analysis. During
our initial review, we identified discrepancies between the OSD Master Database
and the military value spreadsheets. We also determined that E&T JCSG did not
create adequate audit trails for the military value analysis spreadsheets. Based on
our findings, E&T JCSG made changes to the military value spreadsheets. We
conducted a revalidation of the military value analysis spreadsheets and identified
similar issues. Based on our revalidation, E&T JCSG made corrections and
resolved all outstanding data discrepancies and audit trail issues for the FT and
PDE Subgroups.

The SST Subgroup generally created adequate audit trails and documented
methodologies for its military value analysis spreadsheets. Although the SST
Subgroup documented audit trails for each question, due to time constraints we
were not able to verify that the SST Subgroup used certified data for Question 104.
Question 104 asked for SST courses and associated student throughput.
Additionally, we could not determine whether the data materially affected the
military value model or potential candidate recommendations.

COBRA Model Input. After corrections were made, E&T JCSG created
adequate audit trails for the COBRA model input for six potential candidate
recommendations. E&T JCSG had nine potential candidate recommendations
approved by the IEC as of May 2, 2005. Specifically, the FT Subgroup had two
approved candidate recommendations; the PDE Subgroup had one approved
candidate recommendation; and the SST Subgroup had six approved candidate
recommendations. The Army ran the COBRA model on three of the nine
approved candidate recommendations. For the remaining six approved candidate
recommendations, the respective Subgroup ran the COBRA model and updated the
cost analyses as new versions of the COBRA model were released, and we
evaluated the COBRA model input for the 6.09 version. During our initial review,
we identified data discrepancies between the COBRA model input reports and the
data received from the Services through the OSD Acquisition, Technology, and
Logistics portal (OSD AT&L portal). We also identified where E&T JCSG used
data from outside the OSD AT&L portal and where the JCSG applied a
consolidation factor without adequate documentation or justification. After E&T
JCSG made corrections, we determined that E&T JCSG adequately documented
and footnoted all outstanding issues, created a sufficient audit trail, and all material
issues were resolved. E&T JCSG reran the scenarios using COBRA model
                                       8
    version 6.10. We only reviewed the COBRA model version 6.10 for changes
    made to correct audit trail issues and data discrepancies identified during our
    review of COBRA model version 6.09. For specific results of our review, see
    Appendix C. C




E&T JCSG Internal Control Processes for BRAC 2005
    E&T JCSG generally complied with the OSD ICP and E&T SOPs. The OSD ICP
    established the foundation for the E&T JCSG SOP for safeguarding BRAC data.
    Additionally, each E&T JCSG Subgroup created an SOP based on the E&T JCSG
    SOP. We compared each E&T JCSG SOP and each Subgroup SOP to the OSD
    ICP to evaluate E&T JCSG compliance with the OSD ICP and to ensure that
    E&T JCSG adequately addressed all areas of concern. Additionally, we observed
    E&T JCSG on a regular basis as members implemented the policies and
    procedures documented in the SOPs.

    Compliance with OSD ICP. E&T JCSG complied with the OSD ICP procedures
    requiring that:

       •   the BRAC 2005 process be clearly recorded;

       •   information used in the analysis be certified by the appropriate authority
           for accuracy and completeness, and that the information be used
           consistently;

       •   data collected and used for analyses and/or decision making be obtained
           from appropriate sources;

       •   minutes be recorded for all deliberative meetings;

       •   oral briefings be captured in minutes;

       •   outside studies be brought to the attention of any BRAC group;
       •   technical experts submit information or data in writing with the required
           certification if the JCSG considers the data relevant;

       •   nondisclosure agreements be maintained for all participants in the BRAC
           process; and

       •   BRAC 2005 documents be marked as draft deliberative and/or sensitive.

    As a result of compliance actions, E&T JCSG maintained its data integrity
    throughout the BRAC 2005 process.




                                         9
    Compliance with Standard Operating Procedures. E&T JCSG generally
    complied with its SOPs. To evaluate its compliance with the SOPs, we observed
    E&T JCSG on a regular basis as members implemented documented policies and
    procedures in performance of their daily activities. In addition to the requirements
    outlined in the OSD ICP, the E&T JCSG and Subgroup SOPs required that
    E&T JCSG:

       •   safeguard BRAC data by strictly controlling access to facilities, controlling
           and tracking originals and copies of BRAC documents, and following
           office procedures for faxing and e-mailing BRAC information;

       •   review SOPs regularly and update as required; and

       •   update BRAC files with supplemental data upon receipt.


Conclusion
    After corrections were made, E&T JCSG used certified data and created an
    adequate audit trail for capacity analysis and military value analysis. After making
    corrections, E&T JCSG created an adequate audit trail for the input into the
    COBRA model. E&T JCSG also complied with established internal control
    procedures from the OSD ICP and E&T JCSG SOPs. As a result, all material
    discrepancies within our scope of review that might affect the reliability and
    integrity of E&T JCSG process were resolved.




                                         10
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and documentation of data used by the JCSGs.
   Specifically, we determined whether E&T JCSG used certified data and created an
   adequate audit trail for capacity analysis and military value analysis. In addition,
   we determined whether E&T JCSG created adequate audit trails for the COBRA
   model input for its potential candidate recommendations. We also evaluated
   whether E&T JCSG complied with the OSD ICP and E&T JCSG and Subgroup
   SOPs.

   Over a 2-year period beginning May 2003, we attended E&T JCSG and Subgroup
   meetings. We reviewed the formal minutes and briefing charts from the meetings
   to verify that decisions made by E&T JCSG were adequately documented.

   We validated whether E&T JCSG used certified data for developing BRAC
   recommendations. We also evaluated the integrity of the E&T JCSG BRAC 2005
   process. Our evaluation included:

          •   reviewing the capacity analysis and military value analysis
              spreadsheets and Microsoft Access files for accuracy,

          •   ensuring methodologies were sufficiently documented,

          •   comparing data used to make deliberative decisions to certified data,
              and

          •   comparing analysis spreadsheets to Subgroup submissions to the
              Capacity Analysis Report and Military Value Analysis Report.

   Scope Limitations. We reduced the scope of our review for the FT, Ranges, and
   SST Subgroups.

         FT. We performed an initial review of the Optimization Model for the FT
   Subgroup. However, we did not complete follow-up efforts on the Optimization
   Model because of higher priority E&T JCSG audit work.
           Ranges. We completed our validation and revalidation of the
   Ranges-Training capacity analysis data and validation of the Ranges-Test and
   Evaluation capacity analysis data. However, we did not complete follow-up
   efforts with the Ranges Subgroup to address the data integrity and documentation
   issues we identified because the Ranges Subgroup did not have any approved
   candidate recommendations.

   We did not complete a 100 percent validation of the Ranges military value data.
   We conducted a preliminary review of the Microsoft Access data files used for
   military value analysis for the Ranges-Training and Ranges-Test and Evaluation
   Sub-working Groups. Based on our preliminary review of the Microsoft Access
   files, we limited our scope to 67 of the 331 spreadsheets for the Ranges-Training
   Sub-working Group. We validated whether data input to the Microsoft Access
   files was certified, and we did not review the query results. Furthermore, we did

                                        11
not validate the Ranges-Test and Evaluation military value data. We based these
decisions on the volume of data for Ranges military value analysis, time
constraints, and because the Ranges Subgroup did not have any approved
candidate recommendations.

       SST. We did not verify whether the Question 104 data used in the military
value analysis spreadsheets were certified due to time constraints. Additionally,
we did not compare the SST military value analysis data to the Military Value
Analysis Report due to time constraints.

Capacity Analysis Data and Military Value Analysis Data Validation. We
validated whether E&T JCSG used certified data and created adequate audit trails
for capacity analysis and military value analysis. We obtained the capacity
analysis and military value analysis spreadsheets for each E&T JCSG Subgroup
and obtained a copy of the corresponding OSD Master Database for the related
sites and questions. We discussed data integrity and documentation issues with
each Subgroup when applicable and performed a revalidation of the capacity
analysis and military value analysis data after the Subgroups made changes to the
data and audit trails in the spreadsheets. We performed these validations at a
specific point in time, and the following table lists the validation dates of the OSD
Master Database.

Dates of Capacity Analysis Data and Military Value Analysis Data Validations


  Subgroup           Capacity Analysis Data         Military Value Analysis Data


                    Validation      Revalidation      Validation      Revalidation
                      Date             Date             Date             Date


                                                     11/04/04 and
Flight              11/04/04          03/15/05       11/19/04 and        03/15/05
Training                                               11/29/04


Professional
Development          10/27/04         03/08/05         12/01/04          03/08/05
Education


Ranges               11/04/04         03/15/05         02/14/05            N/A


Specialized          11/22/04         02/08/05         12/02/04          03/15/05
Skill Training




                                     12
    COBRA Model Input. We reviewed COBRA model input for six potential
    candidate recommendations (see Appendix C). We used COBRA model version
    6.09 for our review. A subsequent version of the COBRA model (version 6.10)
    was released; however, due to time constraints, we did not revalidate the COBRA
    model input. We only reviewed the COBRA model version 6.10 for changes made
    to correct audit trail issues and data discrepancies identified during our review of
    COBRA model version 6.09. We compared the data in the COBRA model to the
    master or control data downloaded from the OSD AT&L portal.

    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Managing Federal Real Property and the DoD Approach
    to Business Transformation, DoD Support Infrastructure Management high-risk
    areas.

    Use of Computer-Processed Data. We relied upon computer-processed data
    from the OSD Master Database during this audit. This database contained data
    certified through the BRAC processes outlined by the OSD BRAC Office. The
    OSD BRAC Office provided data to us from this database, specifically information
    for the validation of the accuracy and completeness of capacity analysis and
    military value analysis data. We did not assess the reliability of the OSD Master
    Database because it was beyond the scope of our review.

    Use of Technical Assistance. Statisticians from the Analysis, Planning, and
    Technical Support Component, Quantitative Methods Division, Office of the
    Assistant Inspector General for Auditing provided assistance in evaluating the
    algorithms and formulas in the military value analysis spreadsheets.

    Audit Type, Dates, Standards. We performed this audit from May 2003 through
    May 2005 in accordance with generally accepted government auditing standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.


Management Control Program Review
    We evaluated E&T JCSG management controls for documenting and safeguarding
    information associated with the BRAC 2005 data calls, as directed by the OSD
    ICP. Specifically, we reviewed nondisclosure agreements, deliberative meeting
    minutes, storage of BRAC data, and the supporting documentation for E&T JCSG
    BRAC data. Management controls were adequate as they applied to the audit
    objectives (see finding for specific details). The JCSGs were established as part of
    the BRAC process and, therefore, did not have management control programs
    outside of the BRAC process.




                                         13
Appendix B. Prior Coverage
   During the last 5 years, the DoD Inspector General and Army Audit Agency
   (AAA) have issued 12 memorandums and reports related to the Education and
   Training JCSG and 1 report on the COBRA model.

   DoD IG
   DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
   Military Value Data Used by the Ranges-Training Subgroup,” April 18, 2005

   DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
   Military Value Data Used by the Ranges-Test and Evaluation Sub-working
   Group,” April 18, 2005
   DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
   Capacity Data Used by the Flight Training Subgroup,” March 15, 2005

   DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
   Military Value Data Used by the Flight Training Subgroup,” March 15, 2005

   DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
   Capacity Data Used by the Ranges Subgroup,” March 7, 2005

   DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
   Capacity Data Used by the Specialized Skill Training Subgroup,” February 24,
   2005

   DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
   Military Value Data Used by the Specialized Skill Training Subgroup,”
   February 24, 2005

   DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
   Capacity Data Used by the Professional Development Education Subgroup,”
   February 14, 2005
   DoD IG Memorandum, “Validation of the Base Realignment and Closure 2005
   Military Value Data Used by the Professional Development Education Subgroup,”
   February 14, 2005




                                      14
Army Audit Agency
AAA Memorandum, “Validation of Army Responses for Joint Cross-Service
Group Questions, Audit Report: A-2005-0169-ALT,” April 22, 2005

AAA Report No. A-2005-0083-ALT, “Army Military Value Data, The Army
Basing Study 2005,” December 21, 2004

AAA Report No. A-2004-0544-IMT, “Cost of Realignment Action (COBRA)
Model, The Army Basing Study 2005,” September 30, 2004

AAA Memorandum, “Validation of Army Installation Capacity Data for Base
Realignment and Closure 2005, Education and Training Joint Cross-Service Group
(Project Code A-2003-IMT-0440.045), Audit Report: A-2004-0456-IMT,”
August 17, 2004




                                  15
Appendix C. Review of COBRA Model Input for
            Potential Candidate
            Recommendations
    We reviewed the COBRA model input for six E&T JCSG potential candidate
    recommendations. We analyzed each of the recommendations using COBRA
    model version 6.09. E&T JCSG reran the scenarios using COBRA model version
    6.10. We only reviewed the COBRA model version 6.10 input for changes made
    to correct audit trail issues and data discrepancies identified during our review of
    COBRA model version 6.09 input. The following is a synopsis of our review of
    each recommendation.


Flight Training (FT) Subgroup Recommendations
    E&T-0046R: Realign Air Force Primary Undergraduate Pilot Training and
    Realign Air Force Navigator/Combat System Officer Flight Training. The FT
    Subgroup adequately supported the data in the scenario. During our initial review
    of the COBRA model input as of April 20, 2005, we identified data discrepancies
    between the COBRA model input and data from the OSD AT&L portal. We
    identified that the FT Subgroup did not adequately document where the Subgroup,
    in order to correct a COBRA model error report, increased the student total at two
    sites. In addition, the FT Subgroup did not adequately document where the
    Subgroup disabled the Homeowner Assistance Program option and disallowed the
    request for a new recreation center based on the small number of military
    personnel relocating to a base. We reviewed corrections made to COBRA model
    version 6.10 input as of April 22, April 27, and May 5, 2005. Consequently, most
    outstanding data discrepancies were resolved, and the methodologies used were
    adequately documented in the COBRA model input footnotes.

    In addition, we also identified where the FT Subgroup did not incorporate updated
    Air Force military construction cost data in the COBRA model input for this
    scenario. The FT Subgroup did not identify this discrepancy in time to update the
    COBRA run before submission to the BRAC Commission. However, the updated
    Air Force costs were lower than those used in the COBRA model input we
    reviewed, and as a result, the military construction costs are nominally overstated.

    E&T-0052: Realign Joint Strike Fighter Initial Flight Training. The FT
    Subgroup adequately supported the data in the scenario. During our initial review
    of the COBRA model input as of March 23, 2005, we identified where the FT
    Subgroup did not provide a brief description of the scenario, disabled the
    Homeowners Assistance Program option, and supported personnel movements
    with certified data from the Joint Strike Fighter Program Office instead of the OSD
    AT&L portal. We reviewed corrections made to COBRA model version 6.10
    input as of April 28, 2005. Consequently, the methodologies used were adequately
    documented in the COBRA model input footnotes.


                                         16
Professional Development Education (PDE) Subgroup
  Recommendations
    E&T-0014: Establish Joint Center for Religious Training and Education.
    The PDE Subgroup adequately supported the data in the scenario. During our
    initial review of the COBRA model input as of April 14, 2005, we identified where
    the PDE Subgroup included military construction costs based on the number of
    personnel moving, and applied a consolidation factor to estimate personnel
    savings, but did not adequately document the calculation for military construction
    costs or the use of the factor or the justification for doing so. We reviewed
    corrections made to COBRA model version 6.09 input as of April 14, 2005, and
    COBRA model version 6.10 input as of May 14, 2005. Consequently, the
    methodologies used were adequately documented in the COBRA model input
    footnotes.


Specialized Skill Training (SST) Subgroup Recommendations
    E&T-0016: Establish Joint Center for Culinary Training. The SST Subgroup
    adequately supported the data in the scenario. During our initial review of the
    COBRA model as of April 14, 2005, we identified data discrepancies between the
    COBRA model input and data from the OSD AT&L portal. We also identified
    where the source of the data was unclear and an instance where the SST Subgroup
    applied a consolidation factor to estimate personnel savings but did not adequately
    document the use of the factor or the justification for doing so. We reviewed
    corrections made to COBRA model version 6.10 input as of April 21, 2005.
    Consequently, all outstanding data discrepancies were resolved, data were
    adequately supported, and methodologies used were adequately documented in the
    COBRA model input footnotes.

    E&T-0029: Relocate Army Prime Power School. The SST Subgroup
    adequately supported the data in the scenario. During our initial review of
    COBRA model input as of April 7, 2005, we identified data discrepancies between
    the COBRA model input and data from the OSD AT&L portal. We reviewed
    corrections to COBRA model version 6.10 input as of April 20, 2005.
    Consequently, all outstanding data discrepancies were resolved, data were
    adequately supported, and methodologies used were adequately documented in the
    COBRA model input footnotes.

    E&T-0053: Consolidate Transportation Management Training. The SST
    Subgroup adequately supported the data in the scenario. During our initial review
    of COBRA model input as of April 11, 2005, we identified data discrepancies
    between the COBRA model input and data from the OSD AT&L portal. We also
    identified an instance where the SST Subgroup applied a consolidation factor to
    estimate personnel savings but did not adequately document the use of the factor
    or the justification for doing so. We reviewed corrections to COBRA model
    version 6.10 input as of April 22, 2005. Consequently, all outstanding data
    discrepancies were resolved, data were adequately supported, and methodologies
    were adequately documented in the COBRA model input footnotes.

                                        17
Appendix D. Report Distribution

Office of the Secretary of Defense
     Director, Base Realignment and Closure (Installations and Environment)

     Principal Deputy Under Secretary of Defense for Personnel and Readiness


Non-Defense Federal Organizations
     Government Accountability Office




                                        18
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Contract Management prepared this report. Personnel of the Department of
Defense Office of Inspector General who contributed to the report are listed below.

Richard B. Jolliffe
Deborah L. Culp
Deborah L. Carros
Dharam V. Jain
Lusk F. Penn
Beth K. Schaefer
Kenneth B. VanHove
LaNita C. Matthews
Melissa M. McBride
Arsenio M. Sebastian
David L. Spargo
Kimberly H. Gianfagna
Kevin A. Palmer
LeBarron A. Durant
Chad J. Evans
Judy M. Chun
Meredith H. Johnson
